No. 20-994

In the Supreme Court of the United States
VOLKSWAGEN GROUP OF AMERICA, INC., ET AL.,
Petitioners,
v.
THE ENVIRONMENTAL PROTECTION COMMISSION OF
HILLSBOROUGH COUNTY, FLORIDA, AND SALT LAKE
COUNTY, UTAH,
Respondents.

CERTIFICATE OF COMPLIANCE

I, Nicole A. Saharsky, counsel for Amici Curiae and a member of the Bar of this
Court, certify pursuant to Rule 33.1(h) of the Rules of this Court that this Brief for
Product Liability Advisory Council, Inc. and Motor & Equipment Manufacturers
Association As Amici Curiae In Support Of Petitioners contains 5,872 words,
excluding the parts of the brief that are exempted by Rule 33.1(d).

Nicole A. Saharsky

